               U.S. DOT-OIG/AASHTO Audit Subcommittee
      Risk Assessment of State Transportation Agency Payment Process


 Guide Used to Conduct Risk Assessments in Fiscal Year 2003
Background

The United States Department of Transportation (DOT) is investing record
funding amounts to improve the transportation system’s infrastructure and safety.
The Transportation Equity Act for the 21st Century, or TEA-21, authorized about
$180 billion in Federal-aid highway funding to State transportation agencies
(States) for the 6-year period ending in Fiscal Year 2003. This funding amount is
expected to continue in future years. While testifying before the House and Senate
Appropriations Committees in April 2001, Secretary Mineta stated that one of his
priorities is to ensure that the Federal government receives what it pays for and
that major transportation projects are managed wisely and appropriately.

States make construction progress payments to prime contractors at least once per
month. Construction payment estimates, prepared by State engineers and
approved by State project managers, are based on the value of work performed and
materials delivered or stockpiled in accordance with the construction contract.
Payment estimates are based on supporting documentation, such as inspection
reports, estimate books, quantity weight tickets, and construction diaries.

States also pay consultants for various professional services, such as project
oversight, project design, environmental services, and quality assurance. State
project managers assess consultants’ performance based on periodic meetings,
status reports, and interaction with the consultants. Consultants submit monthly
invoices that project managers approve before payment processing. Consultants
are generally not required to provide supporting documentation with invoices, but
the costs are subject to a State audit.

Risk Assessment Objective

The objective of this risk assessment is to identify internal control weaknesses and
best practices related to payments for highway construction contractor and
consultant services.

Scope and Methodology

This risk assessment evaluates internal controls over the Federal-aid payment
process and tests a random sample of Federal-aid expenditures to determine
whether Federal funds were used properly and all costs were adequately
documented and supported.
               U.S. DOT-OIG/AASHTO Audit Subcommittee
      Risk Assessment of State Transportation Agency Payment Process


Assessing internal controls. To evaluate internal controls over the State payment
process, the risk assessment uses the General Accounting Office’s Internal
Control Management and Evaluation Tool, specifically the Control Activities and
Monitoring Standards. Risk assessment steps based on these Standards follow.

Testing Federal-aid expenditures. To determine whether Federal-aid payments to
construction contractors and consultants are proper, this risk assessment tests a
random sample of payment estimates selected from the universe of payment
estimates for construction expenditures during the most recent 12-month period.
Sample items should be traced to supporting source documentation such as
consultant invoices, construction payment vouchers, estimate books, daily
inspection reports, construction diaries, and material weight tickets, etc.

Preliminary Planning

Key documents needed at least 2 weeks before field work begins

• Amount of Federal-aid highway funds apportioned to the State for the last
  three Fiscal Years.

• Amount of Federal-aid expenditures during the most recent Fiscal Year,
  stratified by dollar value.

   • Data file (preferably in Microsoft Excel) containing the universe of
     Federal-aid expenditures for the most recent Fiscal Year. The following
     fields of information are needed:

      −   District number/location
      −   Federal/State project number
      −   Full Federal oversight or exempt from Federal oversight
      −   Transaction date
      −   Transaction amount
      −   Type of expenditure (construction, consultant, etc.)
      −   Payment voucher/invoice number
      −   Payment voucher line item number
      −   Contractor/consultant name
      −   Contractor/consultant number

• Stewardship Agreement with Federal Highway Administration (FHWA).




                                                                               2
               U.S. DOT-OIG/AASHTO Audit Subcommittee
      Risk Assessment of State Transportation Agency Payment Process

• State transportation agency organization chart and key contact points with
  phone numbers for personnel in project management, construction, financial
  and accounting, and auditing divisions. Include key contacts in District
  Offices.

• Current staffing levels for personnel whose responsibilities include oversight
  of Federal-aid projects. Classify by (1) project management, (2) construction
  engineers and inspectors, (3) financial and accounting, and (4) auditing.
  Further classify personnel by location (Headquarters and District Offices).

• Position descriptions for project managers, construction engineers, chief
  estimators, accounting/financial managers, auditors, and other positions with
  responsibility for oversight of the Federal-aid program.

• List and examples of typical supporting documents required before payment to
  construction contractors and consultants is approved.

• Written documentation/flowchart of State payment process for Federal-aid
  expenditures (from beginning to end, i.e., reviewing material weight tickets to
  preparing vouchers to processing payments to issuing checks to contractors).
  Include manual and computer controls to prevent and detect erroneous
  expenditures.

• List and examples of oversight reports used by State managers to monitor
  contractor and consultant performance and progress for Federal-aid projects.

• State DOT Auditor, State Legislative Auditor, FHWA, and Federal Department
  of Transportation Inspector General audits and reviews of State payment and
  oversight processes for Federal-aid projects, including audit reports, risk
  assessments, management control evaluations, process reviews, consultant
  reports, and other reviews issued during the last three Fiscal Years.

Risk Assessment Steps

Control Activities - Internal control activities help ensure that management
directives are carried out and occur at all levels and functions of the entity.
Control activities are policies, procedures, and practices for approvals,
authorizations, verifications, reconciliations, and performance reviews. They
ensure actions are taken to address risks and are an integral part of an entity’s
planning, implementing, reviewing, and stewardship of government resources.
Control activities may be (1) applied in a computerized information system



                                                                               3
               U.S. DOT-OIG/AASHTO Audit Subcommittee
      Risk Assessment of State Transportation Agency Payment Process

environment or through manual processes, and (2) classified by specific control
objectives such as ensuring completeness and accuracy of information processing.

Controls can be either prevention or detection oriented. Both types of controls are
essential to an effective internal control system. From a quality standpoint,
preventive controls are essential because they are proactive and emphasize quality.
Preventive controls attempt to either deter or prevent fraud and prevent loss or
other undesirable events from occurring. Examples of preventive controls are
separation of duties, proper authorization, adequate documentation, and physical
control over assets. Detection controls play a critical role in providing evidence
that preventive controls are functioning. Detection controls attempt to detect
fraud, waste and abuse. They provide evidence of losses but do not prevent losses
from occurring. Detection controls include reviews, inspections, analyses,
variance analyses, reconciliations, physical inventories, and audits and
investigations of fraud, waste and abuse.

1.  Are key areas of authority and                 responsibility   defined   and
communicated throughout the organization?

(a)   Is there a current and accurate organization chart? Do clear reporting
      relationships exist between management and employees? Are employees
      aware of key areas of responsibility as provided in an accurate and current
      position description?

(b)   How does management ensure employees execute their jobs effectively? Is
      responsibility for decision making clearly linked to the assignment of
      authority? Are individuals held accountable? Review performance
      standards for selected positions.

2.     What audit resources do State transportation agencies have available
for oversight of Federal-aid highway construction projects?

(a)   What audit resources are available to provide oversight of Federal-aid funds
      and construction project expenditures?

(b)   What is the audit division’s workload? What are the audit priorities and
      why were these priorities selected?

(c)   What performance targets did audit management set? Did the audit
      division meet its performance targets? Document supporting information.

(d)   What audit reports are provided to the FHWA Division Office?


                                                                                 4
               U.S. DOT-OIG/AASHTO Audit Subcommittee
      Risk Assessment of State Transportation Agency Payment Process


3.     Are there appropriate policies, procedures, techniques, and
mechanisms with respect to control activities? Determine if the State
established, and if so, make copies of, written policies, procedures, and practices
for oversight of:

      −   payment process
      −   construction contractors
      −   professional services consultants
      −   management and oversight of project cost and schedule

4.    Obtain summary data on the funding and cost of Federal-aid highway
projects for the most recent Fiscal Year. Note whether the State’s Fiscal Year
corresponds to the Federal Fiscal Year (October through September).

(a)   How much Federal and State funds were apportioned and obligated for
      Federal-aid highway projects?

(b)   How much Federal and State funds were apportioned and obligated for
      Federal-aid projects with full FHWA oversight?

(c)   How much Federal and State funds were apportioned and obligated for
      Federal-aid highway projects with State oversight (exempt from FHWA
      oversight)?

(d)   What were the number and dollar value of reimbursements for Federal-aid
      highway projects and the number and dollar value of completed Federal-aid
      highway projects?

5.    Control Activities over Payments (23 U.S.C. 121, 23 CFR Part 635.122,
and 23 CFR Part 140)

(a)   Interview State project, financial and information systems managers to
      obtain a thorough understanding of the payment approval process. Is the
      process documented and flowcharted? Request a copy. If not, diagram the
      process (narrative and flowchart) for approving payments to Federal-aid
      construction contractors and consultants. Include important internal
      controls used throughout the process.

(b)   What process is used to create, document and approve construction pay
      estimates?



                                                                                 5
               U.S. DOT-OIG/AASHTO Audit Subcommittee
      Risk Assessment of State Transportation Agency Payment Process

(c)   What process is used to create, document and approve consultant
      payments?

(d)   Besides formal construction audits, how does the State ensure that Federal
      funds are spent appropriately? Does the State employ documentation
      reviewers to verify the accuracy of project records? What items do
      documentation reviewers verify? Are statistical samples of transactions
      tested? If not, how are projects selected by documentation reviewers?

(e)   Does the State have a strategy to minimize duplicate and other erroneous
      payments? What reports are generated to highlight duplicate and other
      erroneous payments? Have duplicate or other erroneous payments occurred
      during the previous two years? If yes, describe how these were found and
      what corrective actions were taken.

(f)   From the sample universe, select and test a random sample of Federal-aid
      highway expenditures for the most recent 12-month period. Stratify the
      sample universe by dollar value and randomly select sample items for a
      95 confidence level and 5 percent error rate. Before beginning field work,
      review sample item pay estimates and judgmentally select one to three pay
      estimate line items to be verified.

(g)   Trace sample items to supporting documentation, such as payment
      vouchers, pay estimates, construction diaries, estimate books, daily
      inspection reports, weight tickets, etc.

6.    Information System Processing - The agency employs a variety of
control activities suited to information processing systems to ensure accuracy
and completeness of payments.

(a)   Observe the processing of a payment voucher/invoice from billing to
      payment, for the State transportation agency payment system and the
      Statewide payment system. Compare this process to the controls listed in
      the payment flowchart. Are control procedures in place and followed?

(b)   Does the State DOT payment system have controls to protect against and
      detect possible duplicate and other erroneous payments before, during, and
      after payment processing? These controls should address and produce
      reports to identify:




                                                                              6
               U.S. DOT-OIG/AASHTO Audit Subcommittee
      Risk Assessment of State Transportation Agency Payment Process

      • Possible duplicate and other erroneous transactions as data is initially
        entered into construction and vendor information systems at the project
        and district level;

      • Possible duplicate and other erroneous transactions as the transactions
        are being extracted for transfer from the State DOT’s payment system to
        the State Treasury’s payment system; and

      • Possible duplicate and other erroneous payments after the transactions
        have been processed by the State Treasury’s payment system.

(c)   If these controls are not present, how does the State DOT detect and
      prevent duplicate and other erroneous transactions?

7.     Separation of Duties Related to Payments - Key duties and
responsibilities are divided among different people to reduce the risk of error,
waste, or fraud. No one individual should be allowed to control all key
aspects of a transaction or event. Interview management and operating
personnel and review organizational charts and job descriptions to establish
individual duties and responsibilities.

(a)   Who estimates the amount of work completed by the contractor during the
      billing cycle?

(b)   Who inspects and confirms contractor compliance with construction
      methods and material quality? Who compensates inspection personnel?

(c)   Who authorizes payment of contractor invoices? Payment authorization
      should be made after work is certified as complete and in accordance with
      contract specifications, or after proper deductions have been made.

(d)   Who records contractor payments?      The accounting department should
      perform this function.

(e)   Who reconciles project payments to the budget? If the same person
      authorizes and reconciles payments for contracts, additional monitoring by
      management is necessary.

(f)   Who disburses the payment to the contractor?

(g)   Who validates the expenditure after payment is made?



                                                                              7
               U.S. DOT-OIG/AASHTO Audit Subcommittee
      Risk Assessment of State Transportation Agency Payment Process

8.    Classifying, Recording, and Documenting Payment Transactions – Are
payment transactions appropriately classified, recorded, and documented to
maintain their relevance, value, and usefulness to management in controlling
operations and making decisions?

(a)   Does written documentation exist for the accounts payable internal control
      structure? Is the documentation readily available for examination? Is
      documentation, whether in paper or electronic form, useful to managers in
      controlling operations and to auditors and others involved? Note if copies
      are available for use by personnel to assist in performing their duties.

(b)   Are transactions completely and accurately classified, recorded, and
      documented? Can the transaction be traced from initiation to completion?

Monitoring – Management should assess internal control performance over time.
This assessment is accomplished by ongoing monitoring activities and by separate
evaluations of internal controls. Ongoing monitoring occurs during normal
operations and includes regular management and supervisory activities,
comparisons, reconciliations, and similar tasks. Separate evaluations, such as peer
reviews, risk assessments, and internal audits, are periodic reviews that focus
directly on the effectiveness of internal controls at a specific time.

The purpose of monitoring is to determine whether internal controls are
adequately designed, properly executed, and effective. Management should have
reasonable assurance that operational objectives were achieved, financial
information was prepared reliably, and the organization has complied with
applicable laws and regulations. Managers should focus on high-risk areas and,
like auditors, should use spot checks of transactions or basic sampling techniques
to provide a reasonable level of confidence in the adequacy of internal controls.

9.    Does State management conduct ongoing monitoring and separate
evaluations to assess internal controls?

(a)   Interview State contract administration and financial managers to determine
      how they monitor control objectives for construction, such as ensuring
      projects remain on budget and within schedule and that improper payments
      are not made. Does management’s strategy provide for routine feedback of
      internal control performance? In what form?

(b)   Interview State project management and accounting personnel to identify
      management information systems used to provide oversight reports such as
      project cost and schedule variances. Does State management use these


                                                                                 8
               U.S. DOT-OIG/AASHTO Audit Subcommittee
      Risk Assessment of State Transportation Agency Payment Process

      reports to assess achievement of objectives and monitor project
      performance? How do they use the reports? Do they provide the reports to
      the FHWA Division Office? Obtain examples.

10.   Are communications from external parties used to corroborate
internally generated data or identify problems with internal control?

(a)   Does the State have a hotline to which complaints or referrals of fraud,
      waste, or abuse can be reported? What complaints and referrals involving
      Federal-aid highway projects have been made? Interview hotline personnel
      and obtain a listing of complaints and referrals for the last three years.

(b)   What policies and procedures are used to track and report allegations of
      fraud, waste, and abuse concerning State and Federal-aid highway
      construction projects from internal and external sources?

(c)   How responsive are external State audit agencies to reviewing allegations
      of fraud, waste, and abuse on State and Federal-aid highway projects? How
      are matters of oversight coordinated with the State auditors?

11.   Are the scope and frequency of separate evaluations of State internal
controls appropriate?

(a)   Interview State Legislative Auditors, State DOT Auditors, and other State
      agencies that audit highway projects to determine whether any pertinent
      risk assessments or audits related to contractor payments or the payment
      system have been issued in the last three Fiscal Years.

(b)   Obtain copies of risk assessments and audit reports issued in the last three
      Fiscal Years related to:

      −   Oversight of consultants
      −   Oversight of construction contractors
      −   State payment process
      −   Project management (cost and schedule)




                                                                                9
